Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 INCORRECT DISTRIBUTION OF CHILD

SUPPORT COLLECTED ON BEHALF OF

CHILDREN IN NON-IV-E FOSTER CARE




    Management                           Advisory Report




                    @ SE RVICE$
               J&                 Q,*V
          *+
                                          JUNE   GIBBS BROWN
         g
         <                                Inspector   General
         2
         % #
           ‘+++
                    2
                    %’d~~
                                                   MAY 1994
                                                 OEI-04-91-00981
                      OFFICE OF INSPECTOR                  GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION                    AND INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and

program evaluations (called inspections) that focus on issues of concern to the Department,

the Congress, and the public. The findings and recommendations contained in these inspection

reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,

and effectiveness of departmental programs.


OEI’S Atlanta Regional Office staff prepared this report under the direction of Jesse J.

Flowers, Regional Inspector General and Christopher Koehler, Deputy Regional Inspector

General. Principal OEI staff included:


Atlanta Region                                                                Headquarters


Maureen Wilce, Project Leader                                                 David Wright

Ron Kalil, Team Leader                                                        W. Mark Krushat

Ruth Reiser

Paula Bowker


For additional copies of thk repti, please contact the Atlanta Rep”onal Ofjice by telephone, at
(404) 331-4108, or by F& at (404) 730-2308.
Purpose


To describe incorrect distribution of child support collected on behalf of children   in

State foster care programs which are not funded under Title IV-E of the Social

Security Act.


Background


Foster care children that have been removed from homes where income is below Aid

to Families with Dependent     Children (AFDC) standards is financed through Federal

and State funds under Title IV-E of the Social Security Act. Those from families

whose incomes are higher or who for other reasons are not covered by Title IV-E, we

call “non-IV-E’ foster care children. More than 260,000 children nationwide are in

non-IV-E foster care. Non-IV-E foster care is funded partially through Title IV-B of

the Social Security Act and through State monies. Federal law requires foster care

agencies to refer low-income biological parents of foster care children to child support

enforcement    agencies for semices. However, no such requirement     exists for higher-

income parents of non-IV-E foster care children.


We recently reported on the potential for collecting child support for children in non-

IV-E foster care (OEI-04-91-00980).       That report showed that child support collections

could be increased if States actively pursued child support on behalf of children in

non-IV-E foster care. For example, during 1991, child support payments were

collected on behalf of 7 percent of our non-weighted sample of non-IV-E foster care

children. This collection rate reflects a low emphasis by States on collecting child

support.    State foster care agencies do not routinely and systematically record basic

information on biological parents of non-IV-E foster care children. Further they

referred only 29 percent of parents of sampled children to child support enforcement

agencies for possible collections.    Since few referrals are made, and information on the

parents is often inadequate, child support orders are established for only 11 percent of

sampled non-IV-E foster care children. Although many parents of children in

non-IV-E foster care have financial resources to pay child support on behalf of their

child, States are not taking full advantage of this potential source of funds.


When child support collections are made, the money is intended to benefit non-IV-E

foster care children and defray costs of non-IV-E foster care programs.     While

performing our study on the potential for collecting child support from biological

parents of children in non-IV-E foster care programs, we observed that some child

support collected from biological parents of a foster care child is not distributed to the

foster care agency which has custody of the child.


Methodology


We randomly selected nine States with probability proportional to size. We then

asked each non-IV-E foster care agency to furnish us a random sample of 70 children



                                             1
in non-IV-E foster care. Thereafter, using a structured questionnaire,   we surveyed
State child support agencies to determine (1) extent of child support collected from
biological parents of sampled children, and (2) distribution of any collections. Because
of the small number of collections reported, we did not project to the universe.

Finding

Child Support Payments Collected From 17 Percent Of The Parents Of Sampled Non-
IV-E Foster Care Children Were Incorrectly Distributed

Fifty-two parents in our sample made child support payments in 1991 to help
financially support their children in non-IV-E foster care. Payments from nineof the
parents (17 percent) were not distributed correctly. Child support collected from
three of the nine parents was incorrectly distributed to biological mothers of the foster
care children, even though they had lost custody of their children. Likewise, child
support collected from six parents was incorrectly distributed to the AFDC program.
As shown by the figure below, child support paid by the remaining 43 parents (83
percent) was correctly distributed to foster care agencies.

                     Distribution Of Child Support Payments




                                 Recipients Of Payments

The distribution errors are partly caused by the recording system. This system,
required by the federal Office of Child Support Enforcement,      does not adequately
record collections made on behalf of children in non-IV-E foster care. Also, current
procedures and reporting mechanisms are confusing, adding to the problem of
incorrect distribution. States which are making child support collections report that
they must operate dual recording systems to adequately track and distribute
collections.   When the dual systems fail, foster care agencies do not receive needed
funds. Finally, the dual systems fail to reflect that collections are intended to offset
government expenses.

The lack of adequate tracking and reporting hinders pursuit of child support on behalf
of children in non-IV-E foster care. Perhaps more importantly, it limits potential for
building parental responsibility. Other States may choose not to pursue child support



                                             2

on behalf of non-IV-E   foster care children because   of the difficulties   in the
distribution system.

Recommendation

The Administration     for Children and Families (ACF) should develop a system    tohelp

States accurately record and distribute collections to an appropriate foster care
agency. That system should include guidance to States for designating (or
redesignating)   payees.

Agency Comments

ACF agreed with our recommendation        but clarified that the problem of incorrectly
distributed collections may also be attributed to correctly designating (or
redesignating)  payees. We accept this explanation and have revised our
recommendation      accordingly. The full text of their comments are attached.




                                              3

.*%
~
  j :* ,Uwrr;   .. .

                   :,4
                       .



:
z

 8
  d

  ++.
                              DEPARTMENT OF HEALTH& HUMAN SERVICES



                                                                      ADMINISTRATION FOR CHILDREN AND FAMILIE
                                                                      Office of the Assistant Secretary, Suite 600
                                                                      370 L’Enfant Promenade, S.W.
                                                                      Washington, D.C. 20447
                       Date:         March 29,   1994
                                                                                                     .yj
                           To:       June Gibbs Brown                                                ..,>
                                                                                                     -....
                                     Inspector General
                           From:     Mary Jo Bane                                       =

                                     Assistant Secretary for

                                       Children and Families               Umm          5 ~“’.

                           Subject:	 Comments on Office of Inspector General Draft
                                     Management Advisory Re~ort, “Incorrect Distribution &J+
                                     Chil& Support Coll&cte~ on-Behalf of Children in Non-

                                     IV-E Foster Care,” OEI-04-91-00981

                           Thank YOU for the opportunity to comment on our recent meetin9
                           and di~cussion of d~>ft findkgs and options    for   recommendations
                           on the above-named Office of Inspector General     (OIG) study.

                           OIG Recommendation

                           The Administration for Children and Families (ACF)
should develop

                           a system to enable States to accurately distribute
collections to

                           an appropriate foster care agency.

                           ACF Comments

                           The ACF agrees with this recommendation. The State child support

                           enforcement automated systems are now accurately distributing

                           collections to the appropriate foster care agency when that

                           agency has been designated as the payee for collected child

                           support. The problem of incorrectly distributed collections is

                           not a system problem; it is a problem of correctly designating

                           (or redesignating) the payee.

                           If the State (non-IV-E) foster care agency wishes the state IV-D

                           agency to be its agent for the collection of child support, there

                           are two possible payers--the non-custodial biological parent and

                           the ex-custodial biological parent from whom the child or

                           children were taken. How the State IV-D agency takes action

                           depends on which of these two prospective payers is pursued.

                           In the case of the non-custodial parent, the foster care agency

                           and the IV-D agency could request a modification of the support

                           order (if it exists) to designate the foster care agency as the

                           recipient rather than the ex-custodial parent. AS long as the

                           order specifies the ex-custodial parent (or under different

                           circumstances the AFDC agency) as the payee, the IV-D agency

                           cannot distribute the child support collections elsewhere, unless

                           and until there is a reassignment of support rights to the State

                           foster care agency.

.,,, .,+
           ..i.’



              Page 2 - June Gibbs Brown

              In the case          of    the         ex-custodial       parent,   the   foster   care   agency   in
              its             to the IV-D agency for child support enforcement
                    application
              services, can designate the foster care agency as the payee. The
              child support award is determined by the appropriate State or
             local     authority             using       the   established       State  guidelines for the
             determination              of     the      amount     of the    award.    In instances where the
              children are placed in foster care                             on a temporary basis (because
              of short-term hospitalization or incarceration of the biological
              custodial parent, for example), the pursuit of child support from

              the parent may be inappropriate.

             Thank you again for giving us the opportunity to comment on this

             draft report.

approximately $1,200 per device for devices consisting of “nothing more than a $50 piece
of foam rubber. ”

After reviewing a sample of claims for body jackets, it was determined that 95 percent of
the devices claimed under code L0430 did not meet either the construction requirements
or the medical purpose of a Medicare-coveredbody jacket. In many cases, the devices
billed were provided primarily for the purpose of keeping patients upright in a wheelchair.
The significance of the finding suggests that more than $7 million in 1991 and, perhaps,
as much as $13.7 million in 1992 were inappropriately paid for non-legitimate devices
billed as L0430.

Although the study did not focus solely on body jackets received by SNF residents, the
findings are equally pertinent to the SNF population. The billing of 14430 for SNF
residents amounted to $129,668 in 1991 and $384,795 in 1992. Assuming 95 percent
were for non-legitimate devices, approximately half a million dollars were incorrectly paid
for SNF residents ($123,185 im 1991 and $365,555 in 1992). Significantly, claims for the
non-legitimate devices are increasing dramatically by triple digit rates (190 percent from
1991 to 1992 after adjusting for medical cost inflation).

●      Misrepresenting the place of service.

Durable medical equipment (DME) is a noncovered item for beneficiaries, unless the
DME is provided in the beneficiary’s residence. A SNF, like a hospital, is not considered
a residence. Based on data from this database and presented in a separate report,
“Payment for Durable Medical Equipment Billed During Skilled Nursing Facility Stays,”
the combined Medicare and resident cost for DME was approximately $10 million in 1992
and over $8 million in 1991.14 Significantly, 99 percent of the 1991 DME claims
imxmectly showed (intentionally or unintentionally)the resident’s location when the item
was provided. Suppliers stated the place of service was the ‘home’ or ‘other’; however,
at the time of the senice, the beneficiary was actually residing in a SNF. Had the
supplier indicated that the beneficiary resided in a SNF, the carrier would have known to
disallow the claim.


                               .




                                               22

In a 1993 survey, we askal carriers to list their concerns about possible abuses in
utilization and payment for durable medical equipment and supplies in nursing homes.
Some of these concerns reflect suspected or known abuse in areas discussed previously in
this report. Others reflect concerns about false billing, improper handling of certificates
of medical necessity, and financial arrangements.




We note that some of the problems listed are being, or have been addressed by the new
Durable Medical Equipment Regional Carriers (DMERCS)15.Carriers were not asked to
provide details on the source or extent of their reports of possible fraud and abuse or
whetherthey had referred any cases to the Offi& of InspectorGeneral.

                               .




                                             23
